No. 20-1163

In the Supreme Court of the United States

GLOUCESTER COUNTY SCHOOL BOARD, PETITIONER
v.

GAVIN GRIMM, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Amici Curiae, Pennsylvania Students, contains 5,645 words, excluding the
parts of the brief that are exempted by Supreme Court Rule 33.1(d).

Executed on March 26, 2021.

RANDALL L. WENGER

Counsel of Record ANDREA L. SHAW
CHERYL LYNN ALLEN Law Office of

JEREMY L, SAMEK

JANICE MARTINO-GOTTSHALL
Independence Law Center
23 N. Front Street, First Fl
Harrisburg, PA 17101

(717) 657-4990
rwenger@indlawcenter.org

Andrew H. Shaw, P.C.
2011 W. Trindle Rd.
Carlisle, PA 17013
(717) 243-7135
andrea@ashawlaw.com

Counsel for Amici Curiae

 
